ForCredi
tCardTi
ps
From t
heConsumer
Fi
nanci
alProt
ect
i
on
Bureau

Tol
ear
nmor
eaboutt
hef
act
or
st
oconsi
derwhenappl
yi
ngf
ororusi
ngacr
edi
t
car
d,vi
si
tt
hewebsi
t
eoft
heConsumer
Fi
nanci
alPr
ot
ect
i
onBur
eauat
ht
t
p:
/
/
www.
consumerf
i
nance.
gov/
l
earnmore

VISA CREDIT CARD AGREEMENT
In this Agreement the words "you" and "your" mean each and all of
those who agree to be bound by this Agreement; "Card" means the
VISA credit card and any duplicates, renewals, or substitutions the
Credit Union issues to you; "Account" means your VISA credit card
line of credit account with the Credit Union, and "Credit Union" means
the Credit Union whose name appears on this Agreement or
anyone to whom the Credit Union transfers this Agreement.
1. Using Your Account. If you are approved for an Account, the
Credit Union will establish a line of credit for you and notify you of
your credit limit. You agree that your credit limit is the maximum
amount (purchases, cash advances, finance charges, plus "other
charges") that you will have outstanding on your Account at any
time. Each payment you make to your Account will restore your credit
limit by the amount of the payment, unless you are over your credit
limit. If you are over your credit limit, you must pay the amount you
are over before payments will begin to restore your credit limit. You
may request an increase in your credit limit only by a method
acceptable to the Credit Union. The Credit Union has the right to
reduce your credit limit, refuse to make an advance and/or
terminate your Account at any time for any reason not prohibited by
law.
2. Using the VISA Card. You may use your Card to make purchases
from merchants and others who accept VISA Cards. In addition, you
may obtain cash advances from the Credit Union and from other
financial institutions that accept VISA Cards, and from some
automated teller machines (ATMs), (Not all ATMs accept VISA Cards.)
To obtain cash advances from an ATM, you must use the Personal
Identification Number (PIN) that is issued to you for use with your
Card. You may use your Visa Card to conduct any transaction or
obtain any credit union service permitted by law. You agree that the
use of the Visa Card to obtain a service or effect a transaction that is
illegal under the law of any jurisdiction where originated, effected or
accomplished will be a default and breach of this agreement. We
may terminate the access to the service or withdraw the right to use
the Visa Card and/or demand the return of all Visa Cards or other
access devices issued to you. If illegal use of your Visa Card occurs,
you waive the right to sue us and agree to indemnify and hold us
harmless from any suits or other legal action or liability which may
be asserted, directly or indirectly, against us arising out of or
resulting from the illegal use of the Visa Card.
3. Responsibility. You agree to pay all charges (purchases and cash
advances) to your Account that are made by you or anyone whom
you authorize to use your Account. You also agree to pay all finance
charges and other charges added to your Account under the terms of
this Agreement or another agreement you made with the Credit Union.
If this is a joint Account, Section 17 below also applies to your
Account.
4. Finance. A Finance Charge will be imposed on Credit Purchases
only if you elect not to pay the entire New Balance of purchases
shown on your monthly statement for the previous billing cycle within
25 days from the closing date of that statement. If you elect not to
pay the entire New Balance of purchases shown on your previous
monthly statement within that 25-day period, a Finance Charge will
be imposed on the unpaid average daily balance of such Credit
Purchases from the previous statement closing date and on new
Credit Purchases from the date of posting to your account during
2002 ©ConmarSystems, Inc., Peachtree City, GA 30269 - CFS 13683

the current billing cycle, and will continue to accrue until the
closing date of the billing cycle preceding the date on which the
entire New Balance of purchases is paid in full or until the date of
payment if more than 25 days from the closing date.
The Finance Charge for a billing cycle is computed by applying a
monthly Periodic Rate as low as .8250% which corresponds to
an ANNUAL PERCENTAGE RATE of 9.9%, up to our highest
daily periodic rate of 1.500%, which corresponds to an ANNUAL
PERCENTAGE RATE of 18.0%. The ANNUAL PERCENTAGE
RATE is based on Individual Credit Hisory. Your ANNUAL
PERCENTAGE RATE will be disclosed to you when the card is
issued. The monthly Periodic Rate is applied to the average daily
balance of Credit Purchases, which is determined by dividing the
sum of the daily balances during the billing cycle by the number
of days in the cycle. Each daily balance of Credit Purchases is
determined by adding to the outstanding unpaid balance of Credit
Purchases at the beginning of the billing cycle any new Credit
Purchases posted to your account, and subtracting any payments
as received and credits as posted to your account, but excluding
any unpaid Finance Charges.
A Finance Charge will be imposed on Cash Advances from the
date of the Cash Advance or from the first day of the billing cycle
in which the Cash Advance is posted to your account, whichever
is later, and will otherwise be calculated in the same manner as
explained above for Credit Purchases.
In addition to the Finance Charge calculated as described above,
a Finance Charge of $5.00 will be charged for each cash
advance that is added to your account.
5. Other Charges. The following other charges (fees) will be
added to your Account, as applicable:
a) Annual Fee: You will be charged an annual fee of $15.00
on the first statement you receive after your account is
opened. The fee will be charged each year until the
account is closed and paid in full.
b) Over-the-Credit-Limit-Fee: You may be charged a fee of
$25.00 on a statement date if your New Balance on that
date, minus any fees imposed during the cycle, is over the
credit limit. You will be charged the fee each subsequent
month until your New Balance on the statement date, less
any fees imposed during the cycle, is BELOW you credit
limit.
c) Late Payment Fee: If you are 10 days or more late in
making a payment, a late charge of $35.00 will be added to
your account.
d) Return Payment Fee: If a check or share draft used to
make a payment on your account is returned unpaid, you
will be charged a fee, of $35.00 for each item returned.
e) Card Replacement Fee: You will be charged $10.00 for
each replacement card that you request.
f) Document Copy Fee: You will be charged $5.00 for each
copy of a sales draft or statement that you request (except
when the request is made in connection with a billing error
made by the credit union).
g) Collection Costs: To the extent permitted by law, you will
also be required to pay the Credit Union’s collection
expenses, including court costs and 15% attorney’s fees if
any sums owing hereunder are collected by or through an
attorney-at-law.

6. Payments. Each month you must pay at least the minimum
payment shown on your statement by the date specified on the
statement or no later than 25 days from the statement closing date,
whichever is later. If your statement says the payment is "Now Due,"
your payment is due no later than 25 days from the statement
closing date. You may pay more frequently, pay more than the minimum payment or pay the Total New Balance in full. If you make
extra or larger payments, you are still required to make at least the
minimum payment each month your Account has a balance (other
than a credit balance). The minimum payment is 3% of your Total
New Balance, or $20.00 whichever is greater, plus the amount of
any prior minimum payments that you have not made, and any
amount you are over your credit limit. The Credit Union also has the
right to demand immediate payment of any amount by which you
are over your credit limit.
7. Payment Allocation. Subject to applicable law, your payments
may be applied to what you owe the Credit Union in any manner the
Credit Union chooses.
8. Security Interest. To secure your credit card account, you grant
us a purchase money security interest in any goods you purchase
through the account. If you default, we will have the right to recover
any of these goods which have not been paid for. As a condition for
the approval of your credit card account you grant us a specific pledge
of your Credit Union shares (deposits) and checking account(s),
excepting those accounts that would have an adverse tax
consequence if pledged as collateral. Collateral securing other loans
you have with the Credit Union may also secure this loan, except
that your home will never be considered as security for this Account
notwithstanding anything to the contrary in any other agreement.
PLEDGE OF SHARE AND SHARE DRAFT (CHECKING)
ACCOUNT(S)—NOTE: YOU PLEDGE TO US AND GRANT A
SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT
ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE,
TO SECURE YOUR CREDIT CARD ACCOUNT. YOU AUTHORIZE
US TO APPLY THE BALANCE IN THESE ACCOUNT(S) TO PAY
ANY AMOUNTS DUE UNDER THIS AGREEMENT IF YOU
SHOULD DEFAULT.
9. Default. You will be in default if you fail to make any minimum
payment or other required payment by the date that it is due. You will
be in default if you break any promise you make under this
Agreement. You will be in default if you die, file for bankruptcy or
become insolvent, that is, unable to pay your obligations when they
become due. You will be in default if you make any false or
misleading statements in any credit application or credit update. You
will also be in default if something happens that the Credit Union
believes may substantially reduce your ability to repay what you
owe.
When you are in default, the Credit Union has the right to demand
immediate payment of your full Account balance without giving you
notice. If immediate payment is demanded, you agree to continue
paying finance charge, at the periodic rate charged before default,
until what you owe has been paid, and any shares that were given
as security for your Account may be applied towards what you owe.
10. Unauthorized Use—Lost/Stolen Card Notification. You have
no liability for the unauthorized use of your card. If you believe your
card has been lost or stolen, notify the Credit Union by calling (706)
434-1600, or (866) 422-8616.

11. Changing or Terminating Your Account. The Credit Union may
change the terms of this Agreement from time to time. Notice of any
change will be given in accordance with applicable law. Use of your
Card after receiving notice of a change will indicate your agreement
to the change. If permitted by law and specified in the notice to you,
the change will apply to your existing Account balance as well as to
future transactions.
Either you or the Credit Union may terminate this Agreement at any
time, but termination by you or the Credit Union will not affect your
obligation to pay the Account balance plus any finance and other
charges you owe under this Agreement. You are also responsible
for all transactions made to your Account after termination, unless
the transactions were unauthorized.
The Card or Cards you receive remain the property of the Credit
Union and you must recover and surrender to the Credit Union all
Cards upon request or upon termination of this Agreement whether
by you or the Credit Union. The Credit Union has the right to require
you to pay your full Account balance at any time after your Account
is terminated, whether it is terminated by you or the Credit Union. If
this is a joint Account, Section 17 of this Agreement also applies to
termination of the Account.
12. Credit Information. You authorize the Credit Union to
investigate your credit standing when opening or reviewing your
Account. You authorize the Credit Union to disclose information
regarding your Account to credit bureaus and creditors who inquire
about your credit standing.
13. Returns and Adjustments. Merchants and others who honor
your Card may give credit for returns or adjustments, and they will
do so by sending the Credit Union a credit slip which will be posted
to your Account. If your credits and payments exceed what you owe
the Credit Union, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it
will be refunded upon your written request or automatically after six
months.
14. Additional Benefits/Card Enhancements. The Credit Union
may from time to time offer additional services to your Account, such
as travel accident insurance, at no additional cost to you. You
understand that the Credit Union is not obligated to offer such
services and may withdraw or change them at any time.
15. Foreign Transactions. Purchases and cash advances made in
foreign countries and foreign currencies will be billed to you in U.S.
dollars. The conversion rate to U.S. dollars will be determined in
accordance with the operating regulations established by VISA
International. Currently the currency conversion rate used to
determine the transaction amount in U.S. dollars is either a
government-mandated rate or the wholesale market rate in effect
one day prior to the transaction processing date, increased by
one-percent. The currency conversion rate used on the processing
date may differ from the rate that would have been used on the
purchase date or cardholder statement posting date.
16. Merchant Disputes. The Credit Union is not responsible for the
refusal of any merchant or financial institution to honor your Card.
The Credit Union is subject to claims and defenses (other than tort
claims) arising out of goods or services you purchase with the Card
if you have made a good faith attempt but have been unable to obtain
satisfaction from the merchant or service provider, and (a) your
purchase was made in response to an advertisement the Credit Union
sent or participated in sending to you; or (b) your purchase cost more

